*

No. 20-931

fPje Supreme Court of tlje Untteb States
Wynship W. Hillier
v.
Central Intelligence Agency and
United States Department of State

On Petition for Writ of Certiorari to the United
States Court of Appeals for the District of
Columbia Circuit

Petition for Rehearing of Petition for
Certiorari
Wynship W. Hillier, pro se
P.O. Box 427214
San Francisco, California 94142-7214
(415) 505-3856
wynship@hotmail.com

RECEIVED
APR - 2 2021

•w

TABLE OF CONTENTS

TABLE OF AUTHORITIES

ii

Introduction

1

The Pet. Cert. Did Not Mention Another Benefit to Pet'r - Identity as an Involuntary

1

Patient.
The War on Terror is a Pretext for Involuntary Mental Health Treatment of U.S.
Persons in Derogation of Constitutional Standards.

i

4

TABLE OF AUTHORITIES
Statutes
5 U.S.C. § 552(c) (2018 and Suppl. II)

1

5 U.S.C. § 552a(j) and (k) (2018 and Supp. II)

1

50 U.S.C. § 1541 note ("Authorization for the Use of Military Force") (2018 and Supp. II)
("AUMF")

6

50 U.S.C. § 1805(a)(2)(A) (2018 and Supp. II)

9

50 U.S.C. § 1810(a) (2018 and Supp. II)

9

A.B. 1800 (California 2000)

7

A.B. 1421 (California 2001)

7

Cal. Welf. & Inst. Code § 5600.3(a)(1), (b)(1), (c), and (d)

4

Lanterman-Petris-Short Act (Pt. 1 of Div. 5 of Cal. Welf. & Inst. Code) ("LPSA")

6,8

Court Cases
Aden v. Younger, 57 Cal. App. 3d 662, 678,129 Cal. Rptr. 535 (1976) (Justice Brown)

2

Bassiouni v. CIA, 392 F.3d 244, *247 (7th Cir. 2004) (Circuit Judge Easterbrook)

1

Hamdi v. Rumsfeld, 542 U.S. 507, *516 (2004) (Justice O'Connor)

8

Hamdi v. Rumsfeld, 542 U.S. 507, *519 (2004) (Justice O'Connor)

8

O'Connor v. Donaldson, 422 U.S. *575, *576 (1975) (Justice Stewart)

6

Washington v. Harper, 494 U.S. 210, *227 (Justice Kennedy) (1990)

2

Washington v. Harper, 494 U.S. 210, *221-22 (Justice Kennedy), *237-38 (Justice
Stevens, diss.) (1990)

2

ii

Executive Orders and Legislative Reports
50 U.S.C. § 3001 note (2018 and Supp. II) ("Executive Order No. 12,333" Sec's 1.1(f) and
8

1.4(g))
Mental Health Board of San Francisco, Fiscal Year 2018-2019 Annual Report 33,

https://www.sfdph.org/dph/files/commTaskForcesDocs/men
talHlthBdDocs/newMntlHlth/uploadedfiles/Annual%20Repor
t%202019%20-%20final%2006-30-2019.pdf

4

A Report on the Public Hearings of the Joint Committee on Mental Health Reform, and
Findings and Recommendations as Adopted by the Senate Select Committee on
Developmental Disabilities and Mental Health, Senator Wesley Chesbro, Chair,
June 1999, The Senate of the State of California, 1042-S.

4

Books
Neil Krishnan Aggarwal, Mental Health in the War on Terror: Culture, Science, and

9

Statecraft (2015)
Alexander Bickel, The Least Dangerous Branch: The Supreme Court at the Bar of Politics

(1962)

3

John Hart Ely, Democracy and Distrust: A Theory of Judicial Review (1980)

2

Michael J. Perry, The Constitution, the Courts, and Human Rights: An Inquiry into the
Legitimacy of Constitutional Policymaking by the Judiciary (1982)
Alan A. Stone, Psychiatry and Morality (1982)

2-3
8

iii

Law Review Article
Michael J. Perlin, Pretexts and Mental Disability Law: The Case of Competency, 47 U.

3,9

Miami L. Rev. 625 (1993)

iv

Introduction
Petitioner Wynship W. Hillier (Pet'r) hereby submits his Petition for Rehearing of the
Court's Order of March 1, 2021, denying his Petition for Certiorari, on the basis of the following
substantial grounds not previously presented:
This is a suit for notice of the existence of records regarding ourselves held by
respondent agencies. The agencies responded to Pet'r's requests by stating that no records
were found, but this is the standard response when the existence of records is classified and
subject to exclusion through 5 U.S.C. § 552(c) and exemption from the notice provision of the
Privacy Act, 5 U.S.C. § 552a(j) and (k) (2018 and Supp. II). The government conceded that all of
the issues we raised were properly before the Court. This Court denied certiorari.
The Pet. Cert. Did Not Mention Another Benefit to Pet'r - Identity as Involuntary Patient.
In our Pet. Cert., we failed to mention the benefits that official acknowledgement of our
terrorist status (i.e., the existence of records about us in the possession of the respective
agencies) would have for us, apart from as an intermediate step towards the acquisition of such
records. It was held in Bassiouni v. CIA, 392 F.3d 244, *247 (7th Cir. 2004) (Circuit Judge
Easterbrook) ("Bassiouni is better off under a system that permits the CIA to reveal some things
... without revealing everything....") that notice of the existence of responsive records was
something of value in its own right, i.e., other than as an intermediate step towards the
acquisition of records themselves. Specifically, it would bestow a political identity to us. As
things stand currently, we do not exist. The conventional wisdom is that United States persons
are not terrorists unless they take up arms against the United States. In fact, they are. In fact,
the War on Terror is a means to subvert Constitutional limits to involuntary mental health

1

treatment in the United States established by this Court. Why is this Court reluctant to support
its own standards? The War on Terror is nothing more than a pretext upon which to inflict such
Unconstitutional treatment upon U.S. persons, whatever it may be to non-U.S. persons.
That involuntary mental health treatment of people who are dangerous to neither self
nor others was ruled Unconstitutional by this court in Washington v. Harper, 494 U.S. 210, *227
(Justice Kennedy) (1990) (unanimous on this point). There, this Court unanimously held that
involuntary administration of antipsychotic medication was a significant deprivation of liberty,
warranting due process protections. Id. 494 U.S. at *221-22 (Justice Kennedy), *237-38 (Justice
Stevens, diss.). We are dealing here with far worse things, i.e., psychosurgery, the permanent,
irreversible destruction of healthy tissue in the human brain to effect a more severe deprivation
of liberty for the subject's entire remaining life. This procedure, outlawed in California and
other states, was called "more harmful than the disease" by a California state appellate justice,
Aden v. Younger, 57 Cal. App. 3d 662, 678,129 Cal. Rptr. 535 (1976) (Justice Brown), when
administered to the most severely disabled patients, i.e., far worse than ourselves. This is an
useless and pointless waste of human life that will be not only condoned but condemned to
silence by this Court if its denial of our Petition for Certiorari is allowed to stand.
That the importance of notice of the existence of responsive records, i.e. political
identity, is of Constitutional significance, we only alluded to at the end of our Petition for
Certiorari. In fact, it was held as the sole basis for noninterpretive review in a venerable and oftcited work, John Hart Ely, Democracy and Distrust: A Theory of Judicial Review (1980). This
work held that the Court is justified in striking down the will of the people when such will serves
to exclude voices from the political process. (In Michael J. Perry, The Constitution, the Courts,

2

and Human Rights: An Inquiry into the Legitimacy of Constitutional Policymaking by the
Judiciary (1982), the basis for noninterpretive review was extended further, beyond such
"process-based" noninterpretive review.) Our voice is excluded from the political process by
denial of notice of the existence of records because we otherwise cannot prove that the War on
Terror is being used as a pretext to inflict long-term involuntary mental health treatment upon
the populace in violation of Constitutional norms, even though pretexts are common in mentalhealth law. See, generally, Michael J. Perlin, Pretexts and Mental Disability Law: The Case of
Competency, 47 U. Miami L. Rev. 625 (1993). Although our terrorist status is used to subject us
to highly intrusive surveillance, used to effect degrading, unethical, and ineffective behavioral
treatments upon us, surveillance is not voice. We cannot direct to whom the product of our
surveillance goes. We do not even know exactly who receives it. Indeed, we do not know upon
what basis it is determined who gets access to the product of surveillance of us and who does
not. The inability to control or even predict who gets what information about us distinguishes
this information from voice. The injustice of our situation is heightened still further by the fact
that we are not even asking for noninterpretive review of any statute. We are not even asking
for interpretive review. We are asking for simple application of the law on the books. Why is
the court system held out to us as an arbiter of justice when in fact our access to it is illusory?
When in fact what we get are administrative decisions based on social position, not justice?
Why are we not governed by laws? Who decides whom is governed by laws and whom by an
inscrutable administration that knows no law?

3

The War on Terror Was and Is a Pretext for Involuntary Mental Health Treatment of U.S.
Persons in Derogation of Constitutional Standards.
This Court nevertheless cannot hide behind the pretext that it perpetuates by denying
review of the application of inconvenient law. See, generally, Alexander Bickel, The Least
Dangerous Branch: The Supreme Court at the Bar of Politics (1962) (the Court uses various
means to avoid taking cases for political reasons). Here in San Francisco, San Francisco
Behavioral Health Services claimed it had appx. 27,980 active patients in 2019, appx. 3.4% of
850,000, the concurrent population of the City and County of San Francisco. Mental Health
Board of San Francisco, Fiscal Year 2018-2019 Annual Report 33, https : //www. sfdph. org

/dph/files/commTaskForcesDocs/mentalHlthBdDocs/newMntlHlth/uploa

dedfiles/Annual%20Report%202019%20-%20final%2006-30-2019.pdf. The
California Legislature reported that 5.53% of the population of California were adults suffering
from severe mental illness, or were adolescents, ages 9-17, suffering from severe emotional
disturbance with functional impairment, in 1999. A Report on the Public Hearings of the Joint
Committee on Mental Health Reform, and Findings and Recommendations as Adopted by the
Senate Select Committee on Developmental Disabilities and Mental Health, Senator Wesley
Chesbro, Chair, June 1999, The Senate of the State of California, 1042-S. California law requires
that the local mental health system must prioritize treatment of these as well as acute patients
and victims of natural disasters. Cal. Welf. & Inst. Code § 5600.3(a)(1), (b)(1), (c), and (d)
(2021). Assuming constant rates over two decades and interpolating to San Francisco, one may
infer from these figures that nearly 2/3 of these populations in San Francisco are currently
being treated by the public mental health system. But how can this be, when treatment is

4

•>
J

onerous and of marginal effectiveness, such that the vast majority of patients would opt out of
it? Specifically, among criminals who were given the opportunity of leaving prison contingent
on their participation in mental health treatment, one third of them chose to return to prison
rather than continue with treatment. How many more would opt out of treatment if the
alternative were not prison? Certainly, a very substantial portion. Therefore, one must infer
that these patients in San Francisco are being treated involuntarily. But how can this be, when
Constitutional norms set the standard for involuntary treatment at a high level, such that very
few patients meet its criteria? One must further infer that most of the involuntary patients are
also being treated in violation of Constitutional norms laid down by this Court.

Fig. 1. Petitions for long-term involuntary mental health treatment in San Francisco.

5

Examination of statistics from the Judicial Council of California confirm this, and tie it to
the War on Terror. These statistics show the number of long-term involuntary mental health
treatment orders filed each year in San Francisco Superior Court ("SFSC"). Prior to 50 U.S.C. §
1541 note ("Authorization for the Use of Military Force") (2018 and Supp. II) ("AUMF"), these
statistics show appx. 100 petitions filed in SFSC per year, a sleepy rate of appx. two per week,
about what one would expect in a city of this size, given prevailing Constitutional norms.
Beginning in fiscal year 2001-2002 (California's fiscal year beginning in June) these figures
immediately "launch" to appx. 2,000 such petitions per year, or appx. eight per day. Applying
reasonable rates of failure and attrition, one may arrive at the current 27,980 figure. No
change in the way in which the statistics were reported accounts for this dramatic uptick in
petitions. It must be inferred that the AUMF gave SFSC license to adjudicate these patients into
long-term involuntary mental health treatment in violation of Constitutional norms. (In order
to insulate these cases from a review they would not survive, the orders had to have issued ex
parte, in total-sealed cases, for an added Constitutional violation to hide the first one.)
For further circumstantial evidence, one may look to the history of involuntary mental
health treatment in the United States. Following federal failure in the area of mental health
treatment and the strengthening of civil commitment laws in earlier decades, a public outcry
for involuntary treatment followed a Surgeon General's Report and a White House Conference
on mental health in 1999. In 2000 in California, the home of the Lanterman-Petris-Short Act
(Pt. 1 of Div. 5 of Cal. Welf. & Inst. Code) ("LPSA"), the toughest involuntary mental health
treatment law in the United States, substantially anticipating this Court's decision in O'Connor
v. Donaldson, 422 U.S. *575, *576 (1975) (Justice Stewart) by eight years, a new involuntary

6

3
mental health treatment law, A.B. 1800 (2000), was proposed, which would substantially
weaken California's tight standards, allowing involuntary detention based on predictions as to
the course a patient's illness might take. The law passed the California Assembly with a
mandate of a very veto-proof majority of 53 to 16. However, the President of the California
Senate, John Burton (D - San Francisco), publicly vowed opposition to the bill and never
assigned it to a committee, such that it never came up for a vote in his house. How could a
single man politically survive so opposing the will of the people? One must infer that the
political capital behind the bill had dried up. Indeed, Mr. Burton seems to have engaged in
some slight-of-hand: As reason for the delay, he cited the need for more study of the issue,
and arranged for commission of the RAND Corporation to do it. When RAND came back seven
months later, after the President had been chosen, a much more benign version of A.B. 1800
(A.B. 1421 (2001)), modeled closely on the RAND findings and amounting to almost nothing,
was submitted and eventually passed. The political will backing A.B. 1800 really had dried up.
Absent any intervening factor, one must look at what else was going on at this time, in
order to explain the problem of the vanishing political will. An important and highly-contested
Presidential election was pending in 2000. It must be inferred that the missing political will had
repositioned itself behind one of the candidates in this election. This case is nontrivial to
sustain. Despite high visibility in the public consciousness during the 2000 Presidential race,
mental health was not even raised by the candidates, especially the candidate who would
prevail. However, voters indicated a strong sense that the country was on the wrong moral
track, and this vague and amorphous theme was harped-upon strongly by the prevailing
contender. By wrong moral track, they did not only mean the Lewinsky and related scandals

7

*/
>

affecting the Clinton administration. Voters specifically mentioned the country as a whole.
Suffice it to say, morals are closely related to the issue of mental illness. See, generally, Alan A.
Stone, Psychiatry and Morality (1982). It must be further inferred that the Presidential
candidate who won knew something about the terrorist attacks that were to rack the country
the following year and the likely response to them, and that he let this on to certain people
who then pushed him to victory. This is complicated by the fact that losing Presidential
candidate Al Gore beat George W. Bush with a comfortable margin in California. But this may
merely express the fact that Californians, at least at that time, preferred a legislative, abovethe-board response to the issue, rather than a secret policy masked by a protracted war in
response to a supposed terrorist attack.
Furthermore, this Court had built a Constitutional wall behind the LPSA, such that it
could only be weakened somewhat. The terrorist attacks of 9/11 (incidentally mirroring the
Twin Towers bombing and the Waco siege at the beginning of the Clinton administration, which
supported the Antiterrorism and Effective Death Penalty Act of 1996) came at a very
convenient time, for they allowed a way around this Constitutional wall through Presidential
war powers. "A citizen, no less than an alien, can be part of or supporting forces hostile to the
United States, or coalition partners, and can be engaged in armed conflict against the United
States ..." Hamdi v. Rumsfeld, 542 U.S. 507, *519 (2004) (Justice O'Connor) (quotation marks
omitted). 'There is some debate as to the proper scope of this term ['enemy combatant' WH], and the Government has never provided any court with the full criteria that it uses in
classifying individuals as such...." Id. at *516 (square brackets added). See, 50 U.S.C. § 3001
note (2018 and Supp. II) ("Exec. Order No. 12,333" Sec's 1.1(f) and 1.4(g)) (Sections added by

8

)

Exec. Order No. 13,470 (July 30, 2008)) (requiring the Intelligence Community to take into
account needs, responsibilities, and requirements of local authorities (such as mental health
authorities - WH)). It may be inferred that the War on Terror was and is used as a pretext to
impose involuntary mental health treatment on a large portion of this nation's populace.
Supporting this thesis, pretexts are common in mental health law. Michael J. Perlin, supra.
If these inferences be correct, then the War on Terror is being used to impose
involuntary mental health treatment on Pet'r in violation of Constitutional norms. The various
illegalities in the processing of his requests take on monumental significance, then, for they
serve to perpetuate this Unconstitutional policy by continuing to hide it, thus not only to
continue to insulate it from challenge, but to deny him any political identity at all. Pet'r did not
mention in his Pet. Cert, that even notice of the existence of responsive records, without more,
would itself be a considerable boon, and should avail him of the higher standards applicable to
keeping this information from him. Bassiouni v. CIA, supra, 392 F.3d at *247. Petitioner's life is
potentially on the line, because medical personnel cooperate with the War on Terror to the
detriment of their medical ethics. See, generally, Neil Krishnan Aggarwal, Mental Health in the
War on Terror: Culture, Science, and Statecraft (2015) (documenting U.S.-employed military
doctors assisting in torture operations, in derogation of their medical ethics). Consequently, he
cannot obtain medical recognition of the debilitating symptoms of psychosurgery that prevent
him from working, to say nothing of the ongoing electronic surveillance, for which he ought to
collect $200 per day in 1978 dollars, 50 U.S.C. § 1810(a) (2018 and Supp. II), because he is not
an agent of a foreign power, 50 U.S.C. § 1805(a)(2)(A) (2018 and Supp. II). An admission that
responsive records exist may allow a writ of habeas corpus to issue. Pet'r is close to his limits

9

.}

financially, physically, and emotionally. He has committed no crime, and must have justice in
order to survive. The Circuit Court of Appeals has issued a ruling wrong on its face, asking to be
reversed. The Writ of Certiorari should issue.
Respectfully submitted,

Wynship Hillier, Petitioner pro se
POB 427214
San Francisco, California 94142-7214
(415) 505-3856
wynship@hotmail.com

10

